0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1029
CITY OF AUSTIN, TEXAS,

Petitioner,
V.

REAGAN NATIONAL ADVERTISING OF TEX.AS,
INCORPORATED, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Amicus Curiae Cato Institute
in Support of Respondent contains 2,749 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33. l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 29, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

